No.
CAPITAL CASE

IN THE SUPREME COURT OF THE UNITED STATES

STATE OF OKLAHOMA, Applicant,
-vs
JAMES CHANDLER RYDER, Respondent.

To the Honorable Neil M. Gorsuch,
Associate Justice of the United States Supreme Court and
Circuit Justice for the Tenth Circuit

CERTIFICATE OF SERVICE

I, Mithun Mansinghani, a member of the Bar of this Court, hereby certify that on this
20th day of May, 2021, I served one original and two copies of the APPLICATION TO
STAY MANDATE to this Court. Additionally, one copy is served via U.S. mail,
postage prepaid to the following:
Meghan Lefrancois
Emma v. Rolls
Assistant Federal Public Defenders
Western District of Oklahoma
215 Dean A. McGee, Suite 707
Oklahoma City, OK 73102
Respectfully submitted,

MITHuN MANsINGHA

Solicitor General
Counsel of Record
OKLAHoMA OFFICE OF THE ATToRNEY GENERAL

313 NE Twenty-First St.
Oklahoma City, OK 73105
mithun.mansinghani@oag.ok.gov
(405) 521-3921

